WF

&J

ILES COOPER
JAMES P. DIEHL
JOSEPH H. JONES. JR.
RICHARD J. WI EST
LORI A. SCHAFER GUZICK
ERIC M. MIKA

WILLIAMSON FRIEDBERG & ]ONES

A Full Service Law Firm

lOWESTWOOD ROAD • POTISVILLE, PA 17901
PHONE 570-622-5933 • FAX 570-622-5033
www.wfjlaw.net

JAMES E. CROSSEN , Ill

J. T. HERBER. Ill
DOUGLAS J. TAGLIERI
ASHLEY M. SECURDA

LLC

SHENANDOAH
26 E. CENTRE ST.
SHENANDOAH, PA 17976
570-462-1976

ORWIGSBURG
570-366-8500

PINE GROVE
570-345-2888

BENJAMIN M. FORBES

HEGINS

OF COUNSEL

570-682-8174

JOSEPH A. McKENNA
HARRY B . CROSSWELL
CHESTER C . CORSE . JR.

WILLIAMSTOWN

September 29, 2021

717-647-7330

VIA ELECTRONIC FILING

The Honorable Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington; D.C. 20543

Re:

Julie Ellen Wartluft, fka Julie Ellen Bartels, et al., v. The Milton
Hershey School, et al., No. 21-231

Dear Mr. Harris:
I write on behalf of Amicus Curiae Protect The Hersheys' Children, Inc.
("PHC") in the above-referenced matter. PHC respectfully requests the correction of
a potential error in its brief in support of Petitioners in this case, filed on September
16, 2021 (the "Amicus Brief').
After filing the Amicus Brief, PHC revisited its disclosure in fn. 1 under Supreme Court Rule 37.6. Amicus PHC initially read Rule 37.6 to contemplate only
counsel of record for a party - and such counsel has, as stated in fn. 1, not authored the Amicus Brief in w h_ole or in part nor made any monetary contribution to
fund its preparation or submission.
However, PHC is concerned that its disclosure was inadvertently deficient
and seeks to correct such in an abundance of caution. This is because PHC's President, Mr. F. Frederic Fouad. is an attorney who has provided legal services - on a
strictly pro bono basis - to the Petitioners in this matter. This includes having referred Petitioners to their Pennsylvania counsel (their attorneys of record here and
in all proceedings below) and assisting Petitioners' counsel of record when requested, also on a strictly pro bono basis.
. Mr. Fouad has never been an attorney of record for Petitioners in any of the
proceedings below and is not an attorney of record here. Nor does Mr. Fouad have

BANKRUPTCY• BUSINESS LAW• CRIMINAL DEFENSE• ELDER LAW• FAMILY LAW AND ADOPTIONS
LITIGATION• PERSONAL INJURY• REAL ESTATE• WILLS, ESTATES AND TRUSTS

any economic interest of any kind in the outcome of the case: his assistance has
been strictly as a public service.
PHC also has no economic interest of any kind in this matter: its interests
are' not aligned with any party and its Amicus Brief is consistent entirely with
PHC's corporate mission.
Nonetheless, to the extent that Mr. Fouad's legal services to Petitioners render him counsel for Petitioners within the meaning of Rule 37.6, and to the extent
that Mr. Fouad's donations to PHC will help PHC pay its filing costs here, PHC
wishes to be certain to disclose such.
Accordingly, PHC requests that the first footnote in the Amicus Brief be corrected to read as follows:
This brief was prepared by counsel for the amicus curiae and not
by counsel of record for any party. No outside contributions were made
to the preparation or submission of this brief. However, PHC's President, Mr. F. Frederic Fouad, is an attorney who has provided pro bono
legal assistance to Petitioners - including assisting Petitioners' attorneys of record on the same pro bono basis - and as such is "counsel for
a party" within the meaning of Rule 37.6. Mr. Fouad has contributed to
the preparation of this brief, assisting PH C's counsel of record, on a pro
bono basis. Mr. Fouad is also one of the donors to PHC and his donations will help PHC pay for its filing expenses in this matter.
Thank you for your attention to this matter.
RESPECTFULLY SUBMITTED,

WILLIAMSON, FRIEDBERG & JONES, LLC
Isl JOSEPH H. JONES, JR.
JOSEPH H. JONES, JR.
ATTORNEYS FOR AMICUS CURIAE PROTECT THE
HERSHEYS' CHILDREN, INC.
CC:

ALL COUNSEL OF RECORD

2

